Please Note: Multiple sections from the following report have
been withheld due to potential security vulnerabilities.




                                        AUDIT OF
                                  SBA’S CONTINUITY OF
                             OPERATIONS PLANNING PROGRAM

                                 AUDIT REPORT NUMBER 5-17

                                          MARCH 30, 2005




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
